                              O ffice of th e Ins pe ctor Ge ne ral



K e nne th S. A pfe l

Com m is s ione r of SocialSe curity


A cting Ins pe ctor Ge ne ral



Eval

   uation of Partne rs h ip A ctivitie s at th e SocialSe curity Adm inis tration


Th e attach e d finalre port pre s e nts th e re s ul
                                                    ts of our re vie w of Partne rs h ip

A ctivitie s at th e SocialSe curity Adm inis tration (A -13-9 8-72023). Th e obje ctive s 

of th is e val

              uation w e re to de te rm ine th e e xte nt of partne rs h ip activitie s at th e
SocialSe curity Adm inis tration, h ow Partne rs h ip re s ul  ts are m e as ure d, and h ow
tim e de vote d to Partne rs h ip is track e d.

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl   ate d on our
re com m e ndations . Ifyou ch oos e to offe r com m e nts , ple as e provide th e m w ith in
th e ne xt 60 days . Ifyou w is h to dis cus s th e finalre port, pl e as e cal
                                                                              lm e or h ave
                          a J. Gardine r, Assistant Ins pe ctor Ge ne ralfor Audit, at
your s taff contact Pam e l
(410)9 65-9 700.




                                                    Jam e s G. H us e , Jr.

A ttach m e nt

cc:

O IG/ES

IO Re ading Fil

              e
O A Re ading File
Subje ct Fil
           e
S.PA TTERSO N:pjk :07-02-9 8
9 8-72023FNL.doc:Re port Fil e
                         E X E CUTIVE S U M M A R Y 


O BJECTIVE

Th e obje ctive s of th is e val
                               uation w e re to de te rm ine th e e xte nt of Partne rs h ip1
activitie s at th e SocialSe curity Adm inis tration (SSA ), h ow Partne rs h ip re s ul   ts are
m e as ure d, and h ow tim e de vote d to Partne rs h ip is track e d.

BACKGROUND

Congre s s re q ue s te d th at th e O ffice of th e Ins pe ctor Ge ne ral(O IG)conduct an
in-de pth re vie w of union activity at SSA to fol        low -up on pre vious G e n e ral
A ccounting O ffice (GA O )w ork . To furth e r cl
                                        2
                                                          arify th e re q ue s t, w e m e t w ith s taff
m e m be rs of th e Subcom m itte e on SocialSe curity, H ous e Com m itte e on W ay s and
M e ans (Subcom m itte e ). Th e Subcom m itte e s taff e xpre s s e d an inte re s t in th e
im pact of Partne rs h ip on A ge ncy ope rations and th e re porting of tim e de vote d to
Partne rs h ip activitie s . In addition, th e Subcom m itte e re q ue s te d th at O IG ve rify
SSA ’ s as s e rtions th at Partne rs h ip h ad re duce d grie vance and unfair l      abor practice
fil
  ings .

O IG announce d pl  ans to e valuate SSA union activitie s , incl    uding Partne rs h ip, on
Fe bruary 10, 19 9 7, and w as m e t w ith s trong re s is tance from th e A m e rican
Fe de ration of Gove rnm e nt Em pl oye e s (AFGE). AFGE be l                             uation
                                                                  ie ve d th at th is e val
w as “ il
        l-advis e d”and not w ith in th e s cope of th e Ins pe ctor Ge ne ral  ’s (IG)
m andate .

W h e n w e be gan our e val uation, SSA h ad ne ith e r conducte d its ow n e val      uation of
Partne rs h ip nor de ve l
                         ope d an inve ntory of its Partne rs h ip activitie s . O n
A pril15, 19 9 7, th e NationalPre s ide nt of A FGE s e nt a l    e tte r to Acting
Com m is s ione r Joh n Callah an re q ue s ting th at a joint e val uation of Partne rs h ip be
conducte d by AFGE and SSA m anage m e nt. Acting Com m is s ione r Cal              l
                                                                                     ah an agre e d
and conve ne d a m e e ting w ith SSA m anage m e nt and A FGE to dis cus s a joint
e valuation of progre s s and im prove m e nts in organizationalpe rform ance re s ul        ting
from SSA Partne rs h ip activitie s .

1
  Exe cutive O rde r 12871, s igne d by Pre s ide nt Cl  inton on O ctobe r 1, 19 9 3, articul   ate d a ne w vis ion of l abor­
                  ations , cal
m anage m e nt re l           l
                              e d “Partne rs h ip”th at re q uire d age ncie s to involve e m ploye e s as fullpartne rs w ith
m anage m e nt to ide ntify probl e m s and craft s olutions to be tte r ful  fil
                                                                                lth e age ncy’s m is s ion and s e rve its
cus tom e rs .
2
   GAO Re port, SocialSe curity: Union Activity at th e SocialSe curity Adm inis tration (GA O /H EH S-9 7-3,
O ctobe r 2, 19 9 6).



                                                                i
In Jul y 19 9 7, SSA e s tabl  is h e d th e Partne rs h ip Eval
                                                               uation Te am (PET) to de s ign
and conduct an e val      uation of SSA Partne rs h ip. Th e te am w as ch arge d w ith
com pil ing th e firs t age ncyw ide inve ntory of Partne rs h ip initiative s and ide ntifying:
1)progre s s and im prove m e nts in organizationalpe rform ance , 2)Partne rs h ip
s ucce s s e s for us e as future m ode l   s , and 3)w h e re Partne rs h ip w as not w ork ing
and m ak e re com m e ndations for im prove m e nt. SSA ’        s Eval uation of Partne rs h ip
re port w as is s ue d in M arch 19 9 8. Be caus e of SSA ’     s unde rtak ing of th is proje ct,
w e inform e d th e Subcom m itte e th at w e pl     anne d to re vis e our approach and re vie w
SSA ’ s Partne rs h ip inve ntory s o th at w e did not dupl    icate SSA ’   s e fforts .

A s part of our ove ral   lanal y s is of SSA ’s inve ntory, w e s e l e cte d a random s am pl    e
of 9 activitie s from SSA ’   s inve ntory of 1,537 activitie s for furth e r re vie w . W e
inte rvie w e d individual s w h o participate d in th e s e activitie s , w ith th e e xce ption of
union participants on tw o of th e activitie s w h o did not coope rate w ith our
e val uation. In addition, w e re vie w e d re l  e vant Partne rs h ip Councilm e e ting m inute s
and s tudie s , re ports , l
                           aw s , and re gul ations re late d to Partne rs h ip. W e inte rvie w e d
A ge ncy m anage m e nt, PET’     s te am le ade r, and oth e r Fe de ralofficial   s w h o w e re
k now l e dge abl e about union activity in th e Fe de rals e ctor. W e al       s o re vie w e d
avail abl e A ge ncy pe rform ance data th at h as b e e n l  ink e d to Partne rs h ip and
e m pl oye e guidance on re porting tim e de vote d to Partne rs h ip.

RESULTS O F REVIEW

• D EFINITIO N O F “PARTNERSH IP”A ND RELA TED A CTIVITIES IS UNCLEAR

• PARTNERSH IPACTIVITIES INVENTO RY IS QUESTIO NA BLE

• SSA ’
      S SYSTEM S D O NO T PRO VID E SUFFICIENT D A TA TO SUPPO RT
  PARTNERSH IPRESULTS O R ACCO M PLISH M ENTS

   SSA Ne e ds to D e ve lop a Form alSys te m for Ide ntifying th e A ccom pl
                                                                             is h m e nts or
   Cos t Savings Re s ulting from Partne rs h ip A ctivitie s

   W e Coul  d Not Concl   ude Th at a Conne ction Exis te d be tw e e n Partne rs h ip and
   th e Re duction in th e Num be r of Grie vance s and Unfair Labor Practice Fil      ings

• REPO RTING O F TIM E D EVO TED TO PARTNERSH IPACTIVITIES H AS VARIED

• EM PLO Y EES M A Y FIND NEW TIM E-REPO RTING GUID A NCE D IFFICULT TO
  FO LLO W




                                                 ii
• NEW GUID A NCE RA ISES M O RE QUESTIO NS A BO UT SSA ’
                                                       S PARTNERSH IP
   INVENTO RY

CO NCLUSIO NS AND RECOMMENDATIO NS

SSA ’ s Eval  uation of Partne rs h ip w as th e A ge ncy’     s firs t atte m pt at q uantifying th e
im pact of Partne rs h ip on th e A ge ncy’    s m is s ion and ope rations . H ow e ve r, s om e of
th e data th at SSA ’        uation is pre dicate d on are q ue s tionabl
                       s e val                                                   e be caus e th e
A ge ncy h ad not pre vious l y e s tablis h e d s ufficie nt accountabil     ity m e as ure s to track
th e as s ociate d cos ts and accom pl   is h m e nts re s ulting from Partne rs h ip activitie s .

To im prove accountabil     ity and SSA ’ s abil
                                               ity to pe rform future e val
                                                                          uations of
Partne rs h ip, w e re com m e nd th at SSA :

• de ve lop a uniform de finition of Partne rs h ip th at is cons is te nt w ith oth e r
  Partne rs h ip-re late d guidance , s uch as th e ne w tim e -re porting guidance , and
  e ns ure th at th is d e finition is com m unicate d Age ncyw ide ;

• de ve l
        op a form als y s te m for ide ntifying and m aintaining Partne rs h ip
  accom pl is h m e nts and cos t s avings th at re s ul
                                                       t from Partne rs h ip activitie s ;

• de te rm ine w h e th e r e m pl
                                 oye e s are com pl ying w ith th e A ge ncy’
                                                                            s tim e -re porting
  guidance and de te rm ine w h e th e r cl   arification of th e guidance is ne ce s s ary;and

• de ve l
        op a cons ol idate d guide of tim e -re porting pol  icie s and proce dure s for
  re porting tim e de vote d to Partne rs h ip and oth e r union-re late d activitie s .


AGENCY CO M M ENTS

SSA be l    ie ve d th at m any of O IG’ s concl  us ions and re com m e ndations w e re bas e d
on a m is unde rs tanding of th e nature of Partne rs h ip and pre m is e d on th e fal       se
notion th at Partne rs h ip activitie s can be s e parate d or dis tinguis h e d from norm al
A ge ncy bus ine s s . SSA disagre e d w ith O IG’      s pe rce ption th at SSA ’  s inve ntory of
Partne rs h ip activitie s w as q ue s tionabl e , and al s o dis agre e d w ith O IG’ s concl us ion
th at th e data did not s upport SSA ’      s conte ntion th at th e num be r of grie vance s and
unfair l   abor practice s (ULP) de cre as e d due to Partne rs h ip. A l    s o, SSA disagre e d
w ith O IG’    s re com m e ndation to de ve lop a form als y s te m to ide ntify Partne rs h ip
re s ults . SSA ge ne ral    l
                             y concurre d w ith O IG’  s re com m e ndations to cl    arify and
cons ol   idate
tim e -re porting guidance and de te rm ine com pl       iance .

O IG RESPO NSE

                                                  iii
O IG doe s not agre e w ith SSA ’         s conte ntion th at Partne rs h ip activitie s cannot be
s e parate d or dis tinguis h e d from A ge ncy bus ine s s . In fact, SSA h as al               re ady
provide d guidance to do jus t th at. O IG dis agre e s w ith SSA ’              s bel   ie f th at its
inve ntory of Partne rs h ip activitie s w as not q ue s tionabl        e . W e found th at e m pl        oye e s
h ad diffe re nt inte rpre tations of w h ich activitie s cons titute d Partne rs h ip, and th at
th is re s ul
            te d in incons is te nt re porting. O IG doe s not agre e w ith SSA ’               s conte ntion
th at a de cre as e in th e num be r of grie vance s and ULPs e s tabl            is h e d a patte rn to
s upport th e pos ition th at th e de cre as e w as due to Partne rs h ip. Th e data l                ack e d a
com parative anal      y s is w h ich coul  d s upport a caus ative rol     e to Partne rs h ip. Las tl      y,
O IG doe s not agre e w ith SSA ’         s pos ition th at Partne rs h ip is not am e nabl        e to
q ual itative anal  y s is . W e be l ie ve th at SSA ne e ds to e s tabl    is h guide l   ine s for
m e as uring th e re s ul   ts of Partne rs h ip.




                                                       iv
                       TA BLE O F CO NTENTS


                                                                                                       Page

EXECUTIVE SUM M A RY..........................................................................i


INTRO D UCTIO N ...................................................................................1


RESULTS O F REVIEW ...........................................................................6


    D EFINITIO N O F “PARTNERSH IP”A ND RELA TED A CTIVITIES IS

    UNCLEAR ......................................................................................6


    PARTNERSH IPACTIVITIES INVENTO RY IS QUESTIO NA BLE ..................7


    SSA ’
        S SYSTEM S D O NO T PRO VID E SUFFICIENT D A TA TO

    SUPPO RT PARTNERSH IPRESULTS O R ACCO M PLISH M ENTS .................9


    � SSA Ne e ds to D e ve l
                            op a Form alSys te m for Ide ntifying th e
        A ccom pl   is h m e nts or Cos t Savings Re s ul      ting from Partne rs h ip

        A ctivitie s ....................................................................................9


    � W e Coul
             d Not Concl
                       ude Th at a Conne ction Exis te d be tw e e n

        Partne rs h ip and th e Re duction in th e Num be r of Grie vance s and

        Unfair Labor Practice Fil
  ings ..........................................................9

    REPO RTING O F TIM E D EVO TED TO PARTNERSH IPACTIVITIES

    H AS VARIED ................................................................................. 11


    EM PLO Y EES M A Y FIND NEW TIM E-REPO RTING GUID A NCE

    D IFFICULT TO FO LLO W .................................................................. 11


    NEW GUID A NCE RA ISES M O RE QUESTIO NS A BO UT SSA ’             S

    PARTNERSH IP INVENTO RY ............................................................. 14


CO NCLUSIO NS AND RECO M M END A TIO NS............................................ 16

A PPEND ICES

A PPEND IX   A - O IG Anal  y s is of SSA ’s Partne rs h ip Inve ntory
A PPEND IX   B - Sam pl e d Partne rs h ip A ctivitie s
A PPEND IX   C - Re porting Tim e D e vote d to Partne rs h ip - D e cis ion Proce s s
A PPEND IX   D - Age ncy Com m e nts
A PPEND IX   E - Union Re s pons e Com m e nts
A PPEND IX   F - M ajor Contributors to Th is Re port
A PPEND IX   G - SSA O rganizationalCh art
                               INTR O D UCTIO N


O BJECTIVE

Th e obje ctive s of th is e val
                               uation w e re to de te rm ine th e e xte nt of Partne rs h ip
activitie s at SSA , h ow Partne rs h ip re s ul
                                               ts are m e as ure d, and h ow tim e de vote d to
Partne rs h ip is track e d.

BACKGROUND

Congre s s re q ue s te d th at O IG conduct an in-de pth re vie w of union activity at SSA
to fol low -up on pre vious G A O w ork . To furth e r cl        arify th e re q ue s t, w e m e t w ith
s taff m e m be rs of th e Subcom m itte e . Th e Subcom m itte e s taff e xpre s s e d an
inte re s t in th e im pact of Partne rs h ip on A ge ncy ope rations and th e re porting of
tim e de vote d to Partne rs h ip activitie s . In addition, th e Subcom m itte e re q ue s te d
O IG to ve rify SSA’     s as s e rtions th at Partne rs h ip h ad re duce d grie vance and unfair
labor practice fil    ings .

Evol
   ution of Partne rs h ip at SSA

O n O ctobe r 1, 19 9 3, Pre s ide nt Clinton is s ue d Exe cutive O rde r 12871, w h ich
articul ate d a ne w vis ion of l abor-m anage m e nt re lations , calle d “Partne rs h ip.” Th is
ne w l abor-m anage m e nt partne rs h ip w as to ch am pion ch ange in Fe de ralage ncie s
and ach ie ve th e goal  s of th e NationalPe rform ance Re vie w ’   s (NPR)Gove rnm e nt
re form obje ctive s .

Partne rs h ip re q uire d th at age ncie s involve e m pl  oye e s and th e ir union
re pre s e ntative s as ful lpartne rs w ith m anage m e nt to ide ntify probl     e m s and craft
s olutions to be tte r ful  fil
                              lth e age ncy’  s m is s ion and s e rve its cus tom e rs . Age ncie s
w e re to form l   abor-m anage m e nt council    s and train e m pl   oye e s and m anage m e nt in
cons e ns ualm e th ods of dis pute re s ol   ution, s uch as al   te rnative dis pute re s ol
                                                                                             ution
te ch niq ue s and inte re s t-bas e d bargaining approach e s . Th e Exe cutive O rde r
re q uire d th at age ncie s e val uate progre s s and im prove m e nts in organizational
pe rform ance re s ul   ting from l abor-m anage m e nt partne rs h ips .

Th e Exe cutive O rde r als o cre ate d a NationalPartne rs h ip Council(NPC) to e s tablis h
a ne w form of l  abor-m anage m e nt re l ations th rough out th e Exe cutive Branch and to
prom ote th e principle s and re com m e ndations adopte d as a re s ul  t of NPR. NPC is
com pris e d of m anage m e nt and union re pre s e ntative s from various age ncie s and



                                                    1

l
abor organizations w h o advis e th e Pre s ide nt on l    abor-m anage m e nt re lations in th e
Exe cutive Branch . NPC’     s re s pons ibil
                                            itie s incl
                                                      ude : s upporting th e cre ation of
abor-m anage m e nt partne rs h ips and prom oting partne rs h ip e fforts in th e Exe cutive
l
Branch ;col  le cting and dis s e m inating inform ation about, and providing guidance
on, partne rs h ip e fforts ;and us ing th e e xpe rtis e of individual s both w ith in and
outs ide th e Gove rnm e nt to fos te r partne rs h ip arrange m e nts .

SSA ’
    s NationalPartne rs h ip Council

O n June 22, 19 9 4, SSA e nte re d into a NationalPartne rs h ip A gre e m e nt w ith A FGE
and e s tablis h e d its ow n 16-m e m be r NPC. M e m be rs h ip is divide d e q ual    ly be tw e e n
SSA and A FGE. Th e NPC’          s purpos e is to de s ign, im pl  e m e nt, and m aintain w ith in
SSA a coope rative , cons tructive w ork ing re l     ations h ip be tw e e n l abor and
m anage m e nt and to ide ntify probl      e m s and craft s olutions . Itis inte nde d to
im prove SSA ’                   ive ry, h e l
                  s s e rvice de l           p SSA ’s le ade rs h ip m ak e be tte r de cis ions , de al
w ith age ncyw ide is s ue s , and ge ne rate guidance for l      ow e r-le ve lPartne rs h ip
Council  s.

SSA Partne rs h ip Council
                         s

Partne rs h ip Council    s h ave al  s o be e n form e d w ith in SSA at th e D e puty
Com m is s ione r l  e ve lat th e ce ntraloffice in Bal   tim ore , M aryl and, and at th e
Re gionalCom m is s ione r l     e ve l
                                      s . Th e D e puty Com m is s ione r Council
   s incl
                                                                                          ude th e
O ffice s of th e Ge ne ralCouns e l     ;H um an Re s ource s ;O pe rations ;Finance ,

A s s e s s m e nt and M anage m e nt;Program s and Pol         icy, 3 and Sys te m s . Form al

Partne rs h ip Council    s e xis t in 7 of SSA ’  s 10 re gions .


Eval
   uation of Partne rs h ip at SSA

O IG announce d its pl   ans to e val
                                    uate union activitie s , including Partne rs h ip, on
Fe bruary 10, 19 9 7, and w as m e t w ith s trong re s is tance from A FGE. A FGE
be l
   ie ve d th at our e val
                         uation w as “il
                                       l-advis e d”and not w ith in th e s cope of th e IG’
                                                                                          s
m andate .

W h e n w e be gan our e val uation, w e l  e arne d th at SSA h ad ne ith e r conducte d its
ow n e val  uation of Partne rs h ip nor de ve lope d its ow n inve ntory of Partne rs h ip
activitie s . O n April15, 19 9 7, Joh n N. Sturdivant, NationalPre s ide nt of A FGE,
re com m e nde d th at form e r A cting Com m is s ione r Joh n J. Cal  ah an re q ue s t th at NPC
                                                                        l
jointly e val uate th e progre s s and im prove m e nts in organizationalpe rform ance
re s ul
      ting from SSA Partne rs h ip activitie s . Com m is s ione r Cal  l
                                                                        ah an concurre d w ith
M r. Sturdivant’  s re com m e ndation and re q ue s te d a m e e ting to dis cus s a joint

3
 Th e O ffice of Program s and Pol
                                 icy h as be e n re nam e d th e O ffice of D is abil
                                                                                    ity and Incom e Se curity
Program s .


                                                      2

e val
    uation of Partne rs h ip. O n June 26, 19 9 7, a s pe cialm e e ting of NPC w as h e l
                                                                                         d,
and m e m be rs com m is s ione d a joint e val                                       s
                                               uation of Partne rs h ip to ch art SSA ’
progre s s and s e t th e s tage for th e future .

First Agencywide Inventory of Partnership

In Jul y 19 9 7, NPC e s tabl  is h e d PET to de s ign and conduct an e val     uation of SSA
Partne rs h ip. Th e te am w as ch arge d w ith com pil     ing th e firs t age ncyw ide inve ntory
of Partne rs h ip initiative s and s ol   iciting input from various s ource s , s uch as
Partne rs h ip Council  s , w ork te am s , m anage rs , union re pre s e ntative s , and oth e rs
w h o us e d Partne rs h ip principl  e s . Th e te am w as to ide ntify 1)progre s s and
im prove m e nts in organizationalpe rform ance , 2)Partne rs h ip s ucce s s e s for us e as
future m ode l  s , and 3)w h e re Partne rs h ip w as not w ork ing and m ak e
re com m e ndations for im prove m e nt. Be caus e of SSA ’        s unde rtak ing of th is proje ct,
w e inform e d th e Subcom m itte e th at w e pl      anne d to re vis e our approach and re vie w
SSA ’ s Partne rs h ip inve ntory s o th at w e did not dupl    icate its e fforts .

For its e val uation of Partne rs h ip, PET de ve l   ope d a s tandardize d form to s ol    icit
inform ation on Partne rs h ip activitie s conducte d s ince th e is s uance of Exe cutive
O rde r 12871 in 19 9 3. A l     lm ajor ce ntraloffice com pone nts and re gionalm anage rs
and e m pl  oye e s w e re re q ue s te d to s uppl
                                                  y activity data, s uch as proje ct titl   e,
de s cription, s tarting/e nding date s , and contact nam e s . Th e form al       s o re q uire d th at
e ach activity be cate gorize d in one or m ore of th e fol        l
                                                                   ow ing: cus tom e r s e rvice ,
labor-m anage m e nt re l  ations , ope rationale fficie ncy, q ual  ity of w ork l ife , cos t
s avings , e m pow e re d e m pl oye e s , and re inve ntion/re e ngine e ring. A n inve ntory w as
cons tructe d from th is input, and it s e rve d as th e s tarting point for PET’        s
e valuation.

PET al s o conducte d s urve y s and inte rvie w e d e m pl  oye e s , including SSA Partne rs h ip
Councilm e m be rs . Th e s e data, coupl    e d w ith th e Partne rs h ip inve ntory, w e re us e d
to e valuate th e progre s s of Partne rs h ip. Th e finalre port, Eval     uation of
Partne rs h ip, w as is s ue d in M arch 19 9 8.

Re ce nt Tim e -Re porting Guide l
                                 ine s

In late 19 9 7, SSA ’  s NPC dis cus s e d h ow SSA s h oul   d de fine Partne rs h ip activitie s
and de ve l  ope d various ins trum e nts to be us e d to re port tim e de vote d to
Partne rs h ip for e m ploye e s and union re pre s e ntative s . NPC al  s o w ork e d to cl
                                                                                            arify a
proce s s for invol  ving e m pl oye e s in w ork group activitie s . O n D e ce m be r 16, 19 9 7,
th e A ge ncy is s ue d guidance on re porting tim e de vote d to Partne rs h ip for
m anage rs , e m pl oye e vol unte e rs , and facilitators . Subs e q ue ntly, on January 23,
19 9 8, SSA is s ue d additionalins tructions on tim e -re porting re q uire m e nts for union
de s igne e s .



                                                   3

Other Studies

GAO Re port. In O ctobe r 19 9 6, GA O is s ue d th e re port, SocialSe curity: Union
A ctivity at th e SocialSe curity Adm inis tration (GA O /H EH S 9 7-3). Congre s s as k e d
GAO to l     ook at th e h is tory of union invol  ve m e nt in th e Gove rnm e nt;th e s tatutory
bas is for th e Gove rnm e nt to pay e m pl    oye e s al arie s and e xpe ns e s for union
activitie s ;th e am ount of tim e s pe nt on, and cos ts as s ociate d w ith , union activitie s
at SSA ;and h ow SSA accounts for th is tim e and m one y. Re garding Partne rs h ip,
GAO re porte d th at SSA w as jus t be ginning Partne rs h ip activitie s , and th at th e s e
lim ite d activitie s w e re not routine ly re porte d as s uch in SSA ’   s union tim e -re porting
s y s te m . GA O indicate d th at s om e of th e tim e s pe nt on Partne rs h ip activitie s w as
be ing re porte d in oth e r activity cate gorie s , and, as Partne rs h ip activitie s incre as e d,
th e tim e de vote d to th e m w oul   d incre as e . H ow e ve r, GA O pointe d out th is
incre as e w oul  d onl y be com e e vide nt if SSA ’                                              y
                                                       s tim e -re porting s y s te m s ade q uate l
de s ignate th is tim e .

O IG Re vie w s . In addition to our re vie w of Partne rs h ip activitie s , O IG is conducting
re vie w s of officialtim e and e m pl  oye e obs e rvations on th e us e of officialtim e . Th e
fol l
    ow ing re ports w il lbe is s ue d conce rning th e s e re vie w s :

• Us e of O fficialTim e for Union A ctivitie s at th e SocialSe curity Adm inis tration
  (A-13-9 7-72013);
• Council220 Union Re pre s e ntative and M anage r O b s e rvations on th e Us e and
  M anage m e nt of O fficialTim e at SSA (A-02-9 7-72002);      and
• Non-Council220 Union Re pre s e ntative and M anage r O b s e rvations on th e Us e
  and M anage m e nt of O fficialTim e at SSA (A-02-9 8-02002).

SCO PE AND M ETH O D O LO GY

To de te rm ine th e e xte nt of Partne rs h ip activitie s at SSA , h ow Partne rs h ip re s ul
                                                                                               ts
are m e as ure d, and h ow tim e de vote d to Partne rs h ip is track e d, w e :

• conducte d a l   ite rature re vie w of re l
                                             e vant te s tim ony and re ports , incl
                                                                                   uding
  SSA ’ s Eval  uation of Partne rs h ip re port, SSA /A FGE NationalPartne rs h ip
  A gre e m e nt, NationalA gre e m e nt be tw e e n AFGE and SSA , Exe cutive O rde rs
  re l
     ate d to Partne rs h ip, and oth e r re le vant l
                                                     aw s and re gul ations ;

• re vie w e d AFGE publ
                       ications and guide s on l
                                               abor-m anage m e nt partne rs h ips ;

• inte rvie w e d PET’
                     s te am le ade r to obtain inform ation on th e s tudy de s ign and
  data us e d to de ve l
                       op th e draft re port, Evaluation of Partne rs h ip;




                                                  4

• analyze d and cate gorize d Partne rs h ip activitie s in SSA ’
                                                                s Partne rs h ip inve ntory
  and contacte d individual s for clarification of ce rtain activitie s (s e e A ppe ndix A
  for our cate gorization of th e activitie s );

• sele cte d a random s am pl
                            e of 9 Partne rs h ip activitie s from SSA ’s Partne rs h ip
  inve ntory of 1,537 activitie s be caus e it w as th e onl y data avail
                                                                        able;

• conducte d te le ph one inte rvie w s w ith e m pl
                                                   oye e s w h o participate d in our
  s am pl
        e d activitie s (s e e A ppe ndix B for a de s cription of th e s e activitie s );

• re vie w e d avail
                   abl
                     e m e e ting m inute s from SSA ’
                                                     s NPC;

• re vie w e d avail
                   abl e ch arte rs , agre e m e nts , and/or m e e ting m inute s from th e
  Partne rs h ip Council  s th at w e re re pre s e nte d in our nine s am ple d Partne rs h ip
  activitie s : Ne w York , Ch icago, A tl    anta, D e puty Com m is s ione r for Sys te m s , and
  th e O ffice of H e arings and A ppe al    s;

• re vie w e d th e O ffice of Labor-M anage m e nt and Em pl   oye e Re l
                                                                         ations (O LM ER)
  data and s tatis tics on unfair l   abor practice s and e m pl oye e grie vance s fil
                                                                                      ed
  be fore and afte r th e im pl e m e ntation of Partne rs h ip;

• inte rvie w e d s taff from th e Fe de ralLabor Re l
                                                     ations A uth ority (FLRA) to obtain
  inform ation on th e im pact of Partne rs h ip on unfair labor practice s and
  grie vance s ;

• inte rvie w e d SSA m anage rs from O LM ER re garding data on unfair l
                                                                        abor
  practice s and grie vance s ;and

• re vie w e d SSA guidance for re porting officialtim e and “Partne rs h ip tim e ”by
  de ve loping a fl ow ch art of th e de cis ion proce s s for re porting tim e de vote d to
  Partne rs h ip activitie s .

O ur s cope w as l im ite d be caus e four union participants ch os e not to coope rate in
tw o of th e s am ple d activitie s (s e e A ppe ndix B).

O ur e valuation w as pe rform e d from Fe bruary 19 9 7 th rough Fe bruary 19 9 8 at SSA
H e adq uarte rs in Bal
                      tim ore , M aryl
                                     and. Th e e val uation w as conducte d in
accordance w ith th e Q ual   ity Standards for Ins pe ctions is s ue d by th e Pre s ide nt’
                                                                                            s
Councilon Inte grity and Efficie ncy.




                                                5

                      R E S U LTS O F R E VIE W


W e original   ly inte nde d to e valuate Partne rs h ip and m e as ure its e ffe cts on SSA ’   s
ope rations and goal     s . W e pl anne d to s e le ct s e ve ralPartne rs h ip activitie s and
e valuate th e re s ul ts and accom pl  is h m e nts of e ach activity. H ow e ve r, w h e n w e
initiate d our e val  uation, w e le arne d th at SSA did not h ave an inve ntory of
Partne rs h ip activitie s and h ad not pe rform e d an e val     uation of Partne rs h ip.
Th e re fore , w e h ad no unive rs e of activitie s from w h ich to bas e our re vie w .

Subs e q ue ntly, SSA initiate d an e val    uation of Partne rs h ip and, as part of th at
e ffort, accum ul  ate d data from acros s th e A ge ncy to de ve l     op its firs t inve ntory of
Partne rs h ip activitie s . W e re vie w e d th e m e th ods us e d to accum ul   ate th e inve ntory
and found th at th e inve ntory w as pote ntial       l       iabl
                                                       y unre l    e . Th e m e th ods us e d coul d
not e ns ure th at al lPartne rs h ip activitie s w e re ide ntifie d, al
                                                                        lactivitie s w e re
Partne rs h ip activitie s , or data in th e inve ntory w e re accurate . Eve n SSA ’      s
Eval  uation of Partne rs h ip re port indicate d th at th e re w as variation in th e data
re ce ive d.

Al s o, w e w e re unabl   e to e valuate th e im pl    e m e ntation of SSA ’s re ce ntl
                                                                                        y is s ue d
tim e -re porting re q uire m e nts for Partne rs h ip activitie s s ince th e guidance h ad jus t
be e n re le as e d during our fie ld w ork . H ow e ve r, w e did re vie w th e guidance and
de ve lope d a fl  ow ch art to as s e s s th e de cis ionm ak ing proce s s on h ow tim e de vote d
to Partne rs h ip is as s igne d and re porte d.

W e found s e ve ralare as of conce rn during our Partne rs h ip e val       uation. In ge ne ral  ,
our conce rns invol      ve proble m s w ith th e de finition of Partne rs h ip and re l
                                                                                       ate d
activitie s , s ufficie ncy of data to s upport Partne rs h ip re s ul
                                                                     ts , and th e us e fulne s s of
re ce ntl
        y is s ue d guidance about tim e de vote d to Partne rs h ip activitie s .

D EFINITIO N O F “PARTNERSH IP”AND RELA TED A CTIVITIES IS
UNCLEAR

Partne rs h ip. Since th e ince ption of Partne rs h ip, th e re h ave be e n re curring
dis cus s ions am ong th e m e m be rs of SSA ’   s Partne rs h ip Council  s ove r th e de finition
and im pl  e m e ntation of Partne rs h ip th rough out SSA . In our re vie w of th e council      s’
m inute s , w e found dis cus s ions of union and m anage m e nt addre s s ing th e
diffe re nce s be tw e e n traditionall abor-m anage m e nt re l ations h ip and true
Partne rs h ip. W e al   s o found th e council s discussing issues re garding th e rol     e s of
union and


                                                  6

m anage m e nt, w h at Partne rs h ip incl ude s , and h ow Partne rs h ip s h oul
                                                                                 d w ork .
H ow e ve r, w e did not find any cl                        os ure re s ul
                                       e ar de finition or cl            ting from th e s e
dis cus s ions .

SSA ’  s Eval uation of Partne rs h ip al  s o re porte d th at Partne rs h ip participants b e l   ie ve d
th at th e re w as a l
                     ack of a uniform SSA -w ide de finition of Partne rs h ip. Participants
w e re unce rtain of union and m anage m e nt’         s rol e s and th e re s pons ibil
                                                                                       itie s of e ach in
Partne rs h ip. Th e re port furth e r s tate s th at th e re is s til
                                                                     lconfus ion about th e
proce s s and proce duralte ch nical     itie s , e .g., th e re l
                                                                 ations h ip of Partne rs h ip to th e
col le ctive bargaining proce s s and al     te rnative dis pute re s ol   ution proce dure s .

Re late d Activitie s . W h e n w e trie d to de te rm ine w h e th e r e m pl oye e s unde rs tood
w h at cons titute d a Partne rs h ip activity, w e found e vide nce of s e ve raldiffe re nt
de finitions . For e xam pl  e , an e m ploye e w e inte rvie w e d be l  ie ve d th at a Partne rs h ip
activity e xis ts w h e n m anage m e nt invol   ve s th e union e arl y in th e de cis ionm ak ing
proce s s . Anoth e r e m pl oye e be lie ve d th at it w as an activity w h e re non-bargaining
and bargaining unit e m pl     oye e s w ork e d toge th e r.

D uring our inte rvie w s w ith e m pl    oye e s in our s am pl    e d activitie s , w e found th at
guidance on Partne rs h ip w as d e l      ive re d in a varie ty of w ay s . Som e e m pl    oye e s
m e ntione d th e y e ith e r re ce ive d m e m orandum s on Partne rs h ip, atte nde d
Partne rs h ip-re late d m e e tings , re ce ive d inte re s t-bas e d bargaining training or
re ce ive d guidance during th e ir invol      ve m e nt in w ork groups . H ow e ve r, oth e r
e m pl oye e s indicate d th at th e y h ad ne ve r re ce ive d or did not re m e m be r re ce iving
any guidance ;th at th e y re ce ive d Partne rs h ip-re l      ate d training, but it w as vague ;or
th at onl y th e ir m anage r h ad re ce ive d Partne rs h ip training.

PARTNERSH IPACTIVITIES INVENTO RY IS QUESTIO NA BLE

Th e inte nt of Partne rs h ip w as to invol   ve e m pl oye e s and th e ir union re pre s e ntative s
as ful lpartne rs w ith m anage m e nt. Toge th e r, th e y w oul      d ide ntify probl  e m s and
craft s ol utions to be tte r fulfillth e A ge ncy’  s m is s ion and s e rve its cus tom e rs .
W h e n w e re vie w e d th e inve ntory of Partne rs h ip activitie s , w e found it difficul     t to
de te rm ine w h ich activitie s m e t th is inte nt. Since w e found no cl       e ar de finition of
Partne rs h ip, it w as not une xpe cte d to find th at SSA ’     s inve ntory incl   ude d a broad
range of m is ce l  l
                    ane ous activitie s as s h ow n in Tabl     e 1 (s e e A ppe ndix A for our
cate gorization of th e activitie s in SSA ’    s inve ntory). W e q ue s tion th e us e ful    ne s s of

th e dive rs e grouping of activitie s in as s e s s ing progre s s and m e as uring

im prove m e nts re s ulting from Partne rs h ip.





                                                    7

       Tabl
          e 1: Exam pl
                     e s of th e D ive rs ity of Re porte d Partne rs h ip A ctivitie s

            A ctivity Titl
                         e                                 A ctivity D e s cription
    D e bt M ode rnization           M ode rnize and e nh ance de bt m anage m e nt
    Proje ct                         proce s s e s to conform to th e Titl     e IIre de s ign.
    M odul ar Furniture              Continuing dial     ogue on furniture de s ign, ins tal    lation,
    Ins tall
           ation                     s e ating as s ignm e nt, and ove ral    lim pact on
                                     e m pl oye e s .
    O rganizationalPl
                    anning           Te am ch arte re d to de ve l   op options and
    Te am                            re com m e ndations for a ne w organizationals tructure
                                     bas e d on a te am -bas e d pol   icy de ve l  opm e nt
                                     e nvironm e nt.
    Inte re s t-Bas e d Bargaining   Th e Re gionalPartne rs h ip Councilagre e d to prom ote
    (IBB)Training                    IBB as th e pre fe rre d m anne r of bargaining. Joint
                                     training w as conducte d for at l       e as t one
                                     m anage m e nt and one union officialin e ach office in
                                     th e re gion. A totalof 280 pe rs ons w e re traine d.
    A w ards Pane l                  M anage m e nt/A FGE w ork e d toge th e r to im pl      e m e nt
                                     national  ly and re gional   ly ne gotiate d aw ards
                                     proce dure s .
    O ve rtim e                      Th e Partne rs h ip Com m itte e m e t to de te rm ine th e
                                     am ount of ove rtim e th at s h oul    d be re q ue s te d for th e
                                     re m ainde r of Fis calYe ar (FY)19 9 5.
    Ce ntralO ffice and O th e r     Vis itors s uch as A cting Com m is s ione r Cal       l
                                                                                            ah an, e tc.
    Vis itors                        are routine l   y introduce d to l  ocalre pre s e ntative s
                                     during vis its .
    Se curity –Ph y s ical           Purch as e of s e curity m irror.

A pote ntialre as on for th is dive rs ity can be found in w h at e m pl       oye e s w e re tol   d to
incl ude as a Partne rs h ip activity. In our dis cus s ion w ith SSA m anage m e nt, th e y
indicate d th at e m pl oye e s w e re ins tructe d to incl  ude , along w ith “Partne rs h ip
activitie s ,”any activitie s th at us e d Partne rs h ip principl  e s , in particul  ar, inte re s t-
bas e d bargaining. In our vie w , inte re s t-bas e d bargaining is a probl         e m -s olving
proce s s or te ch niq ue th at is us e d in m ak ing group de cis ions and doe s not q ual           ify
as an activity in and of its e l  f. As such , activitie s th at m ade us e of inte re s t-bas e d
bargaining s h oul  d not ne ce s s arily be cl as s ifie d as a Partne rs h ip activity. O ve ral      l
                                                                                                        ,
w ith out a cle ar de finition of Partne rs h ip, SSA cannot prope rl        y clas s ify its activitie s
or q uantify im prove m e nts in organizationalpe rform ance .




                                                     8

SSA ’
    S SYSTEM S D O NO T PRO VID E SUFFICIENT D A TA TO SUPPO RT
PARTNERSH IPRESULTS O R ACCO M PLISH M ENTS

SSA Ne e ds to D e ve lop a Form alSys te m for Ide ntifying th e A ccom pl
                                                                          is h m e nts or
Cos t Savings Re s ulting from Partne rs h ip A ctivitie s

To com pl    y w ith Exe cutive O rde r 12871, SSA conducte d an e val              uation to
de te rm ine progre s s and im prove m e nts in organizationalpe rform ance re s ul             ting from
labor-m anage m e nt partne rs h ips . SSA used th e Partne rs h ip inve ntory, coupl               ed
w ith inte rvie w s of Partne rs h ip Councilm e m be rs and s urve y s of e m pl        oye e s
invol  ve d in Partne rs h ip activitie s , to e val  uate th e progre s s of Partne rs h ip. In th is
e valuation, SSA re porte d accom pl         is h m e nts for s e ve ralPartne rs h ip activitie s .

H ow e ve r, during our e val    uation, w e found no e vide nce of a form als y s te m th at
w as m aintaine d to re port on th e accom pl      is h m e nts or im prove m e nts in
organizationalpe rform ance re s ul      ting from th e l  abor-m anage m e nt partne rs h ips . For
e xam pl e , w e found th at SSA ’    s inve ntory of Partne rs h ip activitie s did not contain
inform ation on cos t s avings or be ne fits re s ul    ting from th e activitie s . D uring our
contacts w ith e m pl    oye e s w h o participate d in our s am pl  e d Partne rs h ip activitie s ,
w e as k e d about th e outcom e s of th e activitie s and w h e th e r m one tary s avings or
oth e r be ne fits re s ul
                         ting from th e activity w e re com pil   e d. W e found th at
participants w e re not re q uire d, nor as k e d, to docum e nt e ith e r th e
accom pl   is h m e nts or organizationalim prove m e nts th at re s ul   te d from th e partne ring
activity.

W e Coul d Not Concl ude Th at a Conne ction Exis te d be tw e e n Partne rs h ip and th e
Re duction in th e Num be r of Grie vance s and Unfair Labor Practice Fil  ings

O n June 27, 19 9 6, SSA s ubm itte d a pre pare d s tate m e nt to th e Subcom m itte e 4
noting th at Partne rs h ip h ad h e l
                                     pe d re duce th e h igh cos ts as s ociate d w ith l
                                                                                        itigation
of grie vance s . Spe cifical
                 5
                               ly, th e pre pare d s tate m e nt note d th e fol
                                                                               low ing:

    “. . . w e h ave s e e n a re duction in l
                                             itigation, s pe cifical ly unfair l abor practice
    ch arge s , from 467 ch arge s in FY 19 9 0 to 209 ch arge s in FY 19 9 5. Th e
    Ge ne ralA ccounting O ffice pre vious l   y e s tim ate d th e cos t to th e fe de ral
    Gove rnm e nt to ful   ly proce s s one unfair l abor practice as in e xce s s of


4
  State m e nt on Us e of th e Trust Funds for Union Activitie s , Com m is s ione r of SocialSe curity Be fore th e
Com m itte e on W ay s and M e ans Subcom m itte e on SocialSe curity, Unite d State s H ous e of Re pre s e ntative s ,
June 27, 19 9 6.
5
    Grie vance s are com pl aints fil
                                    e d by e ith e r an e m pl
                                                             oye e or l abor organization conce rning m atte rs re lating to
th e e m pl oym e nt of any e m pl
                                 oye e , th e appl  ication of col l                                         ations or
                                                                   e ctive bargaining agre e m e nts , or viol
m is appl ications of any law s , rule s , or re gulations affe cting conditions of e m ploym e nt.



                                                              9

    $28,000, s o th at th e re duction re pre s e nts a pote ntials avings of ove r
    $7 m il   lion pe r ye ar.”
W e re vie w e d SSA ’   s grie vance and unfair l     abor practice 6 (ULP)data to de te rm ine
w h e th e r s upport e xis te d for th e s tate m e nts m ade by SSA. Bas e d on our re vie w of
grie vance and ULP data, w e de te rm ine d th at th e data SSA m aintaine d w e re
ins ufficie nt to draw s uch a conne ction. Th e data w e re incom pl                      arl
                                                                             e te , particul  y
be fore 19 9 5, and did not provide s ufficie nt de tailto de te rm ine w h e th e r Partne rs h ip
h ad re duce d th e num be r of grie vance s or ULPs . W e al       s o could not confirm
w h e th e r th e num be r of ULP fil   ings re porte d by SSA w e re accurate and re pre s e nte d
th e totalULP fil    ings for th e A ge ncy.

W e dis cus s e d th e l  ack of concl    us ive e vide nce w ith SSA m anage m e nt and inform e d
th e m th at w e l   e arne d th at, untilre ce ntl y, SSA h ad not e s tabl  is h e d form als y s te m s
for accum ul    ating grie vance and ULP data. M anage m e nt agre e d th at th e data
ne ce s s ary “to prove th e l    ink ”be tw e e n Partne rs h ip and th e re duction in grie vance s
in ULPs did not e xis t be fore 19 9 6. Th e A ge ncy bas e d its concl           us ion on th e
num e ricalre duction in grie vance s and ULPs rath e r th an a de tail           e d com parative
anal  y s is of grie vance s and ULPs pas t and pre s e nt. H ow e ve r, m anage m e nt
intuitive l       ie ve d th at Partne rs h ip h as h ad a pos itive im pact on th e A ge ncy and
             y be l
h as m ade de al    ing w ith is s ue s e as ie r.

SSA m anage m e nt as k e d O IG to cons ide r th e findings incl       ude d in a re ce nt re port,
Brie f Te ch nicalRe port on th e NationalPartne rs h ip Council         ’s 19 9 7 Fe de ralSe ctor
Labor Re l  ations Cl im ate Surve y . M anage m e nt be l
                                        7
                                                               ie ve d th at th is s tudy, along w ith
pre vious re ports is s ue d by th e Gove rnm e ntw ide NPC, h as s h ow n th e be ne fits of
Partne rs h ip. In re vie w ing th is s urve y, w e found no e vide nce of an anal        ytical
re vie w of grie vance or ULP data or oth e r re l     ate d inform ation th at coul    d
de m ons trate th at Partne rs h ip h as caus e d th e re duction in th e num be r of fil     ings of
grie vance s or ULPs . Rath e r, NPC’      s 19 9 7 s urve y provide d a broade r as s e s s m e nt of
th e labor re lations cl im ate in th e Fe de rals e ctor and th e pe rce ive d im pact of
Partne rs h ip on various m e as ure s of organizationalpe rform ance . Th is s tudy
focus e d m ore on th e dynam ics of l      abor-m anage m e nt re l  ations and th e “pe rce ive d
im pact”on organizationalpe rform ance th rough th e us e of s urve y q ue s tionnaire s .

W e additional l
               y re vie w e d NPC’
                                 s 19 9 6 s urve y 8 and found it al  s o re porte d th e
                                                                                            ed
re duction of ULPs . Itch aracte rize d th e de cre as e in th e num be r of ULPs b e ing fil

6
  Unfair labor practice s are ch arge s fil
                                          e d agains t age ncie s ove r th e appl
                                                                                ication of th e provis ions of 5 U.S.C.
Se ctions 7101 th rough 7135.
7
  M arick F. M as te rs and Robe rt R. A l brigh t, Brie f Te ch nicalRe port on th e NationalPartne rs h ip Council ’s
19 9 7 Fe de ralSe ctor Labor Re l  ations Clim ate Surve y , D e ce m be r 10, 19 9 7. Th is re port anal
                                                                                                         yze s s urvey data
colle cte d during th e 19 9 7 s urve y conducte d by th e Gove rnm e ntw ide NPC for us e in its 19 9 7 re port to th e
Pre s ide nt. As of th e e nd of our fie l
                                         d w ork , NPC’  s 19 9 7 re port h ad not be e n is s ue d.
8
    A Report to th e Pre s ide nt on Progre s s in Labor-M anage m e nt Partne rs h ips , NPC, O ctobe r 19 9 6.



                                                              10

w ith th e FLRA ove r th e l  as t fe w ye ars as an “  indicator”of th e pos itive e ffe ct of
Partne rs h ip. A l
                  th ough th e re h as b e e n a continuous re duction Gove rnm e ntw ide in
th e num be r of filings in th e pas t 5 ye ars , th e FLRA officialw e contacte d coul        d not
confirm w h e th e r th e re duction w as due to th e im pl    e m e ntation of Partne rs h ip or
from oth e r factors . Th e FLRA officialal     s o s tate d th at h e w as not aw are of any
age ncy th at h ad data to s upport th e concl     us ion th at Partne rs h ip h ad re duce d
ULPs .

REPO RTING O F TIM E D EVO TED TO PARTNERSH IPACTIVITIES H AS
VARIED

W h e n w e be gan our e val    uation of Partne rs h ip activitie s at SSA , th e A ge ncy h ad
not is s ue d form alins tructions to e m pl     oye e s on h ow to re port tim e de vote d to
Partne rs h ip activitie s . Th e re fore , in th e abs e nce of form alins tructions , w e as k e d
e m ploye e s h ow th e y h ad re porte d tim e de vote d to our s am pl     e d Partne rs h ip
activitie s . Give n th is s ituation, th e re porting of tim e de vote d to th e s e activitie s
varie d. Se ve rale m pl   oye e s w h o re pre s e nte d th e union in th e s e activitie s indicate d
th at th e y ch arge d and re porte d th e ir tim e unde r th e cate gory of officialtim e , w h il    e
oth e rs did not. Furth e r, w e found onl       y one activity w h e re m anage m e nt
re pre s e ntative s track e d th e tim e th e y de vote d to th e Partne rs h ip activity.

GAO al   s o found during its audit of union activitie s th at SSA w as not routine l             y
re porting tim e de vote d to Partne rs h ip activitie s , and th at it w as pos s ibl   e th at s om e
tim e s pe nt on Partne rs h ip activitie s w as b e ing re porte d in oth e r officialtim e
cate gorie s . In re s pons e to a congre s s ionalinq uiry 9 on th e us e of trus t fund m one y
for union activitie s at SSA , form e r Com m is s ione r Sh irl     e y S. Ch ate r ack now l  e dge d
th e incons is te nt re porting of tim e de vote d to Partne rs h ip. Sh e al     s o inform e d
Congre s s th at age ncyw ide ins tructions w oul        d be is s ue d for track ing tim e s pe nt on
Partne rs h ip activitie s as w e l
                                  las tim e s pe nt by m anage m e nt in carrying out its
labor-m anage m e nt re s pons ibil itie s . H e r re s pons e al

                                                                 s o indicate d th at th e s e e fforts
w oul dl ik e l
              y s h ow a s ignificant incre as e in tim e re porte d for union activitie s .


EM PLO Y EES M A Y FIND NEW TIM E-REPO RTING GUID A NCE
D IFFICULT TO FO LLO W

D e s pite th e lack of an age ncyw ide de finition of Partne rs h ip, SSA ’      s NPC h e l  d
dis cus s ions in l ate 19 9 7 re garding h ow e m pl     oye e s are to re port tim e de vote d to
Partne rs h ip. A s a re s ult of th e s e dis cus s ions , ne w tim e -re porting guidance w as
de ve l ope d th at dis tinguis h e s th re e cate gorie s of tim e th at e m ploye e s s pe nd on


9
   O n Fe bruary 27, 19 9 7, Com m is s ione r Ch ate r re s ponde d to a Nove m be r 22, 19 9 6 w ritte n inq uiry from th e
H onorabl  e Jim Bunning, Ch airm an, Subcom m itte e on SocialSe curity, Com m itte e on W ay s and M e ans , Unite d
State s H ous e of Re pre s e ntative s .



                                                             11

Partne rs h ip-re l
                  ate d activitie s : Partne rs h ip tim e , officialtim e ,10 and A ge ncy tim e .




10
    O fficialtim e is tim e during w h ich an e m pl
                                                   oye e w oul d oth e rw is e be pe rform ing A ge ncy as s igne d w ork , but
th e e m ploye e is auth orize d by law , re gul
                                               ation, or ne gotiate d agre e m e nt to s pe nd tim e re pre s e nting a union
and/or bargaining unit e m pl    oye e s .



                                                              12

Th e guidance dis tinguis h e s “ Partne rs h ip activitie s ”from A ge ncy w ork group
activitie s and de fine s th e type s of rol         oye e s pe rform w h e n participating in
                                            e s e m pl
“Partne rs h ip activitie s .”

H ow e ve r, in SSA ’ s guidance , it is difficul
                                                t to de te rm ine in w h ich rol e s e m pl
                                                                                          oye e s
are s e rving in th e ne w l
                           y de fine d “Partne rs h ip activitie s .” Th e guidance doe s not
cle arl
      y de fine h ow w ork groups fit unde r th e um bre l    l
                                                              a of Partne rs h ip. W e
de ve l
      ope d a fl ow ch art il
                            lus trating th e com pl  e xity of th e ne w policy (s e e
A ppe ndix C).

For th e purpos e s of re porting “ Partne rs h ip tim e ,”SSA h as d e fine d Partne rs h ip
activitie s to include 1) training on Partne rs h ip, 2) trave lto and from Partne rs h ip
m e e tings or training, 3) Partne rs h ip Councilm e e tings ,11 and 4) facil itation of
Partne rs h ip Councilm e e tings or training.

Additional   l
             y, to re port “  Partne rs h ip tim e ,”th e A ge ncy h as d e ve l
                                                                               ope d th re e
s e parate re porting form s . For e m pl    oye e s to re port tim e on th e appropriate form ,
e m ploye e s m us t de te rm ine w h e th e r th e y are s e rving as a union de s igne e ,
e m ploye e vol unte e r, facil itator, or m anage r. SSA h as d e fine d th e s e rol  e s as
fol low s .

• Union de s igne e s are union re pre s e ntative s or e m pl
                                                             oye e s appointe d by th e
  union, w h o are m e m be rs of a Partne rs h ip Councile s tabl  is h e d by SSA and
  A FGE.

• Em pl oye e Vol   unte e rs are bargaining or nonbargaining unit e m pl        oye e s w h o h ave
  be e n as k e d to participate in Partne rs h ip activitie s by e ith e r th e union or
  m anage m e nt to as s is t th e Partne rs h ip Councilin its d e libe rations or activitie s .

• Facilitators s e rve as ne utralpartie s to h e l
                                                  p m e m be rs of a Partne rs h ip Council
  w ork toge th e r to re ach an unde rs tanding of th e is s ue s and de ve l
                                                                             op s ol utions
  th at m e e t th e ir inte re s ts .

• M anage rs are e m pl oye e s s e rving as a te am l
                                                     e ade r, m anage m e nt de s igne e , or as
  a m anage r or s upe rvis or.




11
   Th e s e activitie s incl
                           ude pre paration, fol
                                               low -up tim e and s ubcom m itte e m e e tings , but not participation on
w ork groups and/or tas k force s .


                                                           13

W h il e th e e m pl
                   oye e ’
                         s rol
                             e m ay be cl  e ar w h e n participating in an activity as a
facil itator or a m anage r, it m ay be difficul t for e m ploye e s to dis tinguis h w h e th e r
th e y are an e m pl oye e volunte e r or a union de s igne e .

Em pl  oye e s w il
                  lre port “  officialtim e ”onl   y in ce rtain circum s tance s w h e n
participating in w ork groups . SSA h as d e fine d w ork groups as groups e s tabl           is h e d
by th e A ge ncy for w h ich m anage m e nt re q ue s ts th e union to re com m e nd
bargaining unit e m pl     oye e s to s e rve . Itis not cl e ar in th e guidance h ow to
de te rm ine w h e th e r a w ork group is or is not cons ide re d a Partne rs h ip-re l ate d
activity.
Th e circum s tance s in w h ich “officialtim e ”w il     lbe ch arge d are de te rm ine d by th e
capacity in w h ich an e m pl     oye e s e rve s on th e w ork group. SSA h as d e te rm ine d
th at “officialtim e ”w il   lbe ch arge d w h e n e m pl oye e s participating on w ork groups
are re pre s e nting th e union. If th e e m pl   oye e is not re pre s e nting th e union, th e
e m pl oye e w illbe cons ide re d to be pe rform ing an A ge ncy “as s ignm e nt of w ork ”
and, as s uch , w il  lh ave no form alre porting re q uire m e nts b e caus e e m pl   oye e s are
cons ide re d to be w ork ing in a duty s tatus or on “age ncy tim e .”

Th e A ge ncy h as e s tabl is h e d crite ria to de te rm ine w h e th e r an e m pl
                                                                                    oye e is
re pre s e nting th e union. M anage m e nt w il    lre q ue s t th at th e union re com m e nd
bargaining unit e m pl   oye e s to s e rve on th e w ork group. Ifm anage m e nt acce pts th e
union’   s re com m e ndations , e m pl  oye e s w h o participate on th e w ork group w il    lw ork
in an A ge ncy “as s ignm e nt of w ork ”capacity or on “age ncy tim e .” Th e s e
e m ploye e s m us t not s e rve in a re pre s e ntationalcapacity for th e union w h il     e
actual  ly participating in th e w ork group activitie s .

Ifm anage m e nt fail  s to acce pt th e union’  s re com m e nde d bargaining unit e m pl oye e ,
th e union m ay e l e ct to de s ignate a union re pre s e ntative (s ) to s e rve on th e
w ork group. Th e s e e m pl oye e s w il
                                        ls e rve in a union re pre s e ntationalcapacity and
w illre port “officialtim e .”

NEW GUID A NCE RA ISES M O RE QUESTIO NS A BO UT SSA ’
                                                     S
PARTNERSH IP INVENTO RY

Itis im portant for SSA m anage m e nt to re cognize th at its ne w l         y is s ue d guidance is
not cons is te nt w ith th e ins tructions is s ue d to e m pl   oye e s during its e val uation of
Partne rs h ip. W h e n de ve l  oping SSA ’   s inve ntory, m anage m e nt re q ue s te d th at
e m pl oye e s re port Partne rs h ip activitie s and incl ude any activitie s th at us e d th e
principl  e s of Partne rs h ip. H ow e ve r, w h e n de ve loping its ne w tim e -re porting
re q uire m e nts , SSA al te re d th is ch aracte rization of Partne rs h ip and de fine d
Partne rs h ip activitie s to incl  ude s pe cific activitie s .




                                                   14

To e val   uate h ow th is ne w guidance w oul      d affe ct SSA ’ s inve ntory, w e appl   ie d
SSA ’   s ne w pol  icy to its Partne rs h ip activity inve ntory. W e de te rm ine d th at
approxim ate l    y 19 2 of th e 1,537 activitie s m ay q ual   ify as “Partne rs h ip activitie s ,”
and anoth e r 71 activitie s m ay q ual     ify as w ork group activitie s be caus e th e y w e re
e ith e r titl
             e d or de s cribe d as a w ork group. W e coul     d not de te rm ine h ow th e tim e
de vote d to th e re m aining 1,274 activitie s w oul      d h ave be e n re porte d h ad th e s e
ins tructions b e e n in pl  ace .




                                                 15

  CO NCLUSIO NS AND RECO M M END A TIO NS


Exe cutive O rde r 12871 articul     ate d Partne rs h ip and re q uire d th at age ncie s invol  ve
e m pl oye e s and th e ir union re pre s e ntative s as fullpartne rs w ith m anage m e nt to
ide ntify probl  e m s and craft s olutions to be tte r ful  fillth e age ncy’  s m is s ion and
s e rve its cus tom e rs . Th e Exe cutive O rde r al  s o re q uire s th at age ncie s pe riodically
e val uate progre s s and im prove m e nts in organizationalpe rform ance s re s ul         ting from
th e
labor-m anage m e nt partne rs h ip.

SSA ’  s Eval   uation of Partne rs h ip w as th e A ge ncy’     s firs t atte m pt at q uantifying th e
e ffe ct of Partne rs h ip on th e A ge ncy’    s m is s ion and ope rations . W h il     e th e
e val uation m e e ts th e as s e s s m e nt obje ctive of th e Exe cutive O rde r, s om e of th e
data on w h ich th e re port is pre dicate d are q ue s tionabl         e . SSA ’ s e val  uation focus e s
on th e pe rce ive d e ffe ct of Partne rs h ip and h as l    ittle q uantifiabl  e data th at can
de m ons trate h ow Partne rs h ip h as im prove d SSA ’        s abil  ity to m e e t its m is s ion and
im prove s e rvice to SSA ’      s cus tom e rs . Th e A ge ncy al    s o h as not e s tabl is h e d
s ufficie nt accountabil     ity m e as ure s to track th e as s ociate d cos ts and
accom pl   is h m e nts re s ulting from Partne rs h ip activitie s .

To im prove accountabil     ity and SSA ’ s abil
                                               ity to pe rform future e val
                                                                          uations of
Partne rs h ip, w e re com m e nd th at SSA :

1. de ve lop a uniform de finition of Partne rs h ip th at is cons is te nt w ith oth e r
   Partne rs h ip-re late d guidance , s uch as th e ne w tim e -re porting guidance and
   e ns ure th at th is d e finition is com m unicate d Age ncyw ide ;

2. de ve l
         op a form als y s te m for ide ntifying and m aintaining Partne rs h ip
   accom pl is h m e nts and cos t s avings th at re s ul
                                                        t from Partne rs h ip activitie s ;

3. de te rm ine w h e th e r e m pl
                                  oye e s are com pl ying w ith th e A ge ncy’
                                                                             s tim e -re porting
   guidance and de te rm ine w h e th e r cl   arification of th e guidance is ne ce s s ary;and

4. de ve l
         op a cons ol idate d guide of tim e -re porting pol  icie s and proce dure s for
   re porting tim e de vote d to Partne rs h ip and oth e r union-re late d activitie s .

SSA ’
    s GENERALCO M M ENTS




                                                    16

SSA be l    ie ve s th at m any of O IG’ s concl  us ions are bas e d upon a m is unde rs tanding
of th e nature of Partne rs h ip and pre m is e d on th e fal    s e notion th at Partne rs h ip
activitie s can be s e parate d or dis tinguis h e d from norm alA ge ncy bus ine s s . SSA
be lie ve s th at Partne rs h ip activitie s h ave be e n dire ctl
                                                                 y re s pons ible for m any
s ucce s s e s in e nh ancing cus tom e r s e rvice and im proving th e q ual    ity of e m ploye e s ’
w ork l  ife . SSA disagre e d w ith th e O IG’    s pe rce ption th at its inve ntory of
Partne rs h ip activitie s w as q ue s tionabl  e , and w ith th e concl  us ion th at availabl e data
did not s upport SSA ’       s conte ntion th at th e num be r of grie vance s and unfair l    abor
practice s de cre as e d due to Partne rs h ip.

O IG’
    s RESPO NSE TO GENERA LCO M M ENTS

W e dis agre e w ith SSA ’   s pos ition th at Partne rs h ip activitie s cannot be s e parate d or
dis tinguis h e d from norm alage ncy bus ine s s . In fact, SSA is s ue d guidance in
D e ce m be r 19 9 7 w h ich de s cribe d and dis tinguis h e d be tw e e n w h ich activitie s
s h oul d be cons ide re d partne rs h ip and w h ich s h oul  d be cons ide re d norm alage ncy
bus ine s s . W e continue to be l   ie ve th at th e Partne rs h ip inve ntory is q ue s tionabl   e.
W h e n conducting our e val     uation, w e found th at e m pl    oye e s h ad diffe re nt
inte rpre tations of w h ich activitie s cons titute d Partne rs h ip activitie s , re s ul ting in
incons is te nt re porting. Conce rning SSA ’       s bel
                                                        ie f th at Partne rs h ip h as re s ulte d in
re ducing th e num be r of unfair l    abor practice s and grie vance s , w e m aintain th at
th e re is ins ufficie nt data to conduct a com parative anal         y s is of unfair l
                                                                                       abor
practice s and grie vance s pas t and pre s e nt.

SSA ’
    s COMMENTS O N O IG’
                       s RECO M M END A TIO NS AND O IG’
                                                       s
RESPO NSES

Re com m e ndation #1: D e ve l    op a uniform de finition of Partne rs h ip th at is
cons is te nt w ith oth e r Partne rs h ip-re l
                                              ate d guidance , such as th e ne w tim e -re porting
guidance and e nsure th at th is d e finition is com m unicate d Age ncyw ide .

SSA Com m e nt

SSA indicate d th at Partne rs h ip is an ongoing proce s s in w h ich it s h are s
inform ation, dis cus s e s is s ue s , and crafts s olutions in a coope rative , cons tructive
w ork ing re l ations h ip be tw e e n union and m anage m e nt in orde r to accom pl       is h SSA ’ s
m is s ion and to be tte r s e rve SSA ’  s cus tom e rs . Th e A ge ncy be lie ve s th is d e finition
is cons is te nt w ith Exe cutive O rde r 12871 and is in l     ine w ith th e National
Partne rs h ip Partne rs h ip H andbook .

O IG Re s pons e




                                                  17

In orde r for th e A ge ncy to e val     uate th e re s ul  ts and accom pl  is h m e nts of
Partne rs h ip, e m pl oye e s ne e d to h ave a cl   e ar unde rs tanding of h ow Partne rs h ip w il     l
w ork in th e A ge ncy and w h at activitie s are cons ide re d to be Partne ring activitie s .
Th is ne e d for a de finition w as al    s o e xpre s s e d in th e A ge ncy’s ow n e val    uation of
Partne rs h ip. W h e n SSA is s ue d its re ce nt tim e -re porting guidance , th e de finition of
Partne rs h ip be gan to e vol   ve as s pe cific type s of activitie s w e re l    is te d as
“Partne rs h ip A ctivitie s .” H ow e ve r, th is l is t of Partne rs h ip activitie s did not incl   ude
inte re s t-bas e d bargaining w h ich w as incl     ude d in th e “Ge ne ralLabor M anage m e nt”
activity cate gory th at is s e parate and dis tinct from th e “Partne rs h ip A ctivitie s ”
cate gory. Th e incons is te ncie s be tw e e n w h at Partne ring incl       ude s for th e purpos e s
of e val  uating re s ults and for th e purpos e s of re porting tim e ne e d to be re s ol        ve d.
Cons is te nt guidance on de fining Partne rs h ip and w h ich activitie s are cons ide re d
Partne rs h ip activitie s is e s s e ntialfor e val uation purpos e s .

Re com m e ndation #2: D e ve l  op a form als y s te m for ide ntifying and m aintaining
Partne rs h ip accom pl                                           t from Partne rs h ip
                      is h m e nts and cos t s avings th at re s ul
activitie s .

SSA Com m e nts

SSA be l  ie ve s th at th e proce s s doe s not l
                                                 e nd its e lf to a q uantitative anal    y s is and
th at its Partne rs h ip Eval uation Re port s atis fie s th e re q uire m e nt of th e Exe cutive
O rde r.

O IG Re s pons e

W e dis agre e w ith th e A ge ncy’     s concl  us ion th at th e proce s s doe s not l     e nd its e l
                                                                                                        f to
a q uantitative anal    y s is . Eve n th e A ge ncy’    s ow n e val  uation of Partne rs h ip
atte m pte d to pe rform a q uantitative anal         y s is . In its e valuation, th e A ge ncy
as s e m bl
          e d a data bas e of activitie s and conducte d a non-s tatis ticals urve y of its
e m pl oye e s to re port on th e accom pl     is h m e nts and re s ul  ts of Partne rs h ip. To
appropriate l   y m e as ure re s ults , th e A ge ncy ne e ds to e s tabl   is h cons is te nt guide l ine s
for m e as uring re s ul ts of e ach Partne rs h ip activity or w ork group in addition to
m e as uring tim e de vote d to th e s e activitie s and w ork groups .

Re com m e ndation #3: D e te rm ine w h e th e r e m pl
                                                       oye e s are com pl ying w ith th e
Age ncy’ s tim e -re porting guidance and de te rm ine w h e th e r cl
                                                                     arification of th e
guidance is ne ce s s ary.

SSA Com m e nts

SSA agre e d w ith th is re com m e ndation.




                                                     18

Re com m e ndation #4: D e ve l op a cons ol idate d guide of tim e -re porting pol icie s and
proce dure s for re porting tim e de vote d to Partne rs h ip and oth e r union-re l
                                                                                   ate d
activitie s .

SSA Com m e nts

SSA im pl   e m e nte d its ne w tim e -re porting s y s te m in Fe bruary 19 9 8. Prior to th at,
O LM ER is s ue d guidance on h ow to im pl       e m e nt th e ne w s y s te m , incl
                                                                                     uding th e
dis tinctions to be m ade am ong officialtim e , Partne rs h ip tim e , and l        abor re l
                                                                                             ations
activitie s . Additional    l
                            y, O LM ER initiate d training on th e s y s te m , and e s tabl is h e d a
te le ph one inform ation conne ction for m anage rs th rough out th e organization about
th e guidance .

O IG Re s pons e

D uring our e val  uation, w e found th at tim e re porting guidance w as is s ue d in s e ve ral
diffe re nt m e m oranda ove r s e ve ralye ars . H ow e ve r, w e found no s ingul    ar
cons ol  idate d guide th at cl
                              e arly de fine d h ow e m pl oye e s s h ould re port tim e de vote d
to union activitie s , including Partne rs h ip activitie s . O ne ce ntralpubl    ication w oul  d
provide a m uch ne e de d Age ncyw ide pol       icy on h ow e m pl  oye e s s h ould re port tim e
s pe nt on Partne rs h ip and union activitie s .




                                                  19

A PPEND ICES

                                                                                 A PPEND IX A



 O IG Anal
         y s is of SSA ’
                       s Partne rs h ip Inve ntory

W e pe rform e d our ow n anal    y s is of SSA ’
                                                s Partne rs h ip activity inve ntory to be tte r
unde rs tand th e type s of activitie s th at w e re incl
                                                        ude d in th e inve ntory. In doing s o,
w e cate gorize d th e activitie s into 7 m ajor cate gorie s and 13 s ub-cate gorie s bas e d
on our re vie w of e ach activitie s ’de s cription. Th e fol   l
                                                                ow ing tabl  e s h ow s th e
dis tribution of th e activitie s am ong th e m ajor cate gorie s and s ub-cate gorie s and
provide s a de s cription of th e type s of activitie s th at are in th e s e cate gorie s .




                                              A -1

                                   O IG CA TEGO RIZ A TIO N O F SSA ’
                                                                    S PARTNERSH IP ACTIVITY INVENTO


         CA TEGO RY/
     SUB-CA TEGO RY                                                     A CTIVITIES INCLUD ED IN SUB-CA TEGO RY
A ) Em pl  oye e Eval  uation and Re cognition
                                Type s of activitie s incl    ude d th e e val  uation of as s e s s m e nt crite ria and pe rform ance s tandards for
    A pprais al                 type s of pos itions .
                                Th e s e activitie s incl ude d th e de ve l  opm e nt of aw ards program guide l          ine s or ins tructions and th e a
    A w ards                    pane lactivitie s w h e re e m pl   oye e s form com m itte e s to s e l   e ct e m pl oye e s for aw ards.
                                Th e s e incl ude d activitie s s uch as as s e s s m e nt prom otion pane l      s and th e de ve l    opm e nt of e m pl  oy e e
    D e ve lopm e nt            de ve l opm e nt program s , s uch as care e r l     adde r and upw ard m obil       ity program s .
B) H e al th & Safe ty          A ctivitie s addre s s e d ph y s icals e curity, h e alth and s afe ty is s ue s in SSA buil        dings.
C) O ffice Facil  itie s
                                Th e s e activitie s addre s s e d th e purch as e and dis tribution of e q uipm e nt, s uch as com pute rs and
    Eq uipm e nt                te le ph one s .
                                Th e s e activitie s invol ve d th e ins tal  lation of furniture in office s , w h ich incl      ude d th e layout, pl    ace m
    Furniture                   and de s ign of office s pace . Som e activitie s ove rl         appe d w ith th e Re novations cate gory.
                                Type s of activitie s incl    ude d th e re novation and re m ode l      ing of office s th at invol     ve d th e s e l
                                                                                                                                                       e ction o
    Re novations                carpe ts , purch as e of furniture , w al     lpl ace m e nts , and fl oor pl  ans . Som e of th e s e activitie s ove rl     ap
                                w ith th e Furniture cate gory.
D ) Partne rs h ip M e e tings and Training
                                Th e s e activitie s re pre s e nt Partne rs h ip Councilm e e tings and oth e r m e e tings b e tw e e n union and
    M e e tings                 m anage m e nt.
                                Th e s e activitie s invol ve d training initiative s re l  ate d to Partne rs h ip, i.e ., inte re s t-bas e d bargaining,
    Partne rs h ip Training facil     itation, brains torm ing and cons e ns us d e cis ion-m ak ing.
E) Re as s ignm e nt and Re l  ocation
                                Th e s e activitie s incl ude d th e re as s ignm e nt of e m pl  oye e s to oth e r l   ocalitie s . Th e y als o incl ude d th
    Re as s ignm e nt           re s tructuring of SSA organizations s uch as th e m e rging of tw o s e parate office s .
    Re l ocation                Th e s e activitie s invol ve d th e re l ocation and m ove m e nt of SSA office s .
F) W ork ing Conditions         Th e s e activitie s addre s s e d is s ue s s uch as tim e and atte ndance , l       e ave and ove rtim e pol     icie s , ove rt
                                us age , and bre ak pol    icie s .
G) W ork l  oad D is tribution and Proce s s ing
    D is ability Re de s ign    A ctivitie s incl  ude d initiative s re late d to th e re de s ign of th e dis abil   ity proce s s .
    Training                    Th e s e activitie s invol ve d training re l   ate d to w ork l oad proce s s ing.
                                Th e s e activitie s invol ve d w ork l  oad re l ate d activitie s s uch as th e dis tribution of w ork l      oads , as s ign
    W ork l oad                 of w ork , te l  e ph one cove rage , pil  oting of w ork proce s s e s , and e nh ance m e nt of autom ate d s y s te m
                                                                                                                                              TO TA LA CTIV

                                                                                                  A -2

B-1

                                       A PPEND IX B


Sam pl
     e d Partne rs h ip A ctivitie s
                                                      SAM PLED PARTNERSH IPACTIVITIES



                                     Com pone nt or
          A ctivity Titl
                       e                Re gion                                     Purpos e O f A ctivity
Sh ifting W ork l
                oads                                   Sh ifte d w ork l oad to oth e r e m pl  oye e s and office s due to th e l  arge
                                        Ch icago       re ce ipt of ch ildh ood dis abil  ity and drug addiction and al       coh olis m
                                                       cl aim s .
Fis calYe ar 19 9 6 Nas h vil
                            le                         D e te rm ine d th e s ize and com pos ition of th e D is trict A w ards
D is trict A w ards Pane l               A tl
                                            anta       Pane lto e ns ure a fair re pre s e ntation of m anage m e nt and
                                                       e m pl oye e s on th e pane l  .
H ol
   iday Le ave Sch e dul
                       e                               Re vie w e d proce dure s for h ol    iday l e ave us age to e ns ure a bal  ance
                                        Ch icago       be tw e e n e m pl oye e l e ave re q ue s ts and m e e ting th e de m ands of
                                                       th e publ   ic.
Stre am lining th e W ork               O ffice of     Re vie w e d th e M e m orandum of Unde rs tanding re garding
Proce s s in th e D ock e t and      H e arings and    s tre am l ining th e w ork proce s s e s in D ock e t and Fil  e s Branch .
File s Branch                            A ppe al
                                                s
Fle xiplace                             O ffice of     Im pl
                                                           e m e nte d th e finalph as e offl
                                                                                            e xipl
                                                                                                 ace .
                                     H e arings and
                                         A ppe al
                                                s
Re ce ption Initiative s to                            Eval  uate d w ay s of im proving l     ong cus tom e r w aiting tim e s in th e
Im prove Se rvice to th e Pub l
                              ic       Ne w York       re ce ption are a th at re s ul te d from th e de parture of tw o
                                                       e m pl oye e s .
19 9 7 Aw ards Pane lTraining           O ffice of     Eval  uate d aw ards pane ltraining to de te rm ine h ow to adm inis te r
D e ve l
       opm e nt W ork group             Sys te m s     it to Sys te m s A w ards Pane l    s.
Re gionalPartne rs h ip Council                        Provide d training to e m pl     oye e s s e rving on Partne rs h ip Council s
Form alTraining                         A tl
                                           anta        on Councilform ation and inte re s t-bas e d bargaining.
D is abil
        ity Claim s M anage r          Ne w York       Pilote d th e ne w D is abil  ity Cl aim s M anage r pos ition th at com bine d
                                                       th e cl aim s re pre s e ntative and dis abil   ity e xam ine r functions .


*W e atte m pte d to obtain inform ation on th e s e activitie s from union participants . H ow e ve r, th e s e participants d id n
    uation.
e val




                                                                             B-2

                                            A PPEND IX C


Re porting Tim e D e vote d to Partne rs h ip

            D e cis ion Proce s s 

                      A PPEND IX D


AGENCY CO M M ENTS

                                A PPEND IX E


UNIO N RESPO NSE CO M M ENTS

                                                                                        A PPEND IX F


       M A JO R CO NTRIBUTO RS TO TH IS REPO RT


O ffice of th e Ins pe ctor Ge ne ral

Scott Patte rs on, D ire ctor, Eval
                                  uations and Te ch nicalSe rvice s
CarlM ark ow itz, Te am Le ade r
Jim K le in, Auditor-In-Ch arge
Ste ph anie Palm e r, Se nior Auditor
Evan Buck ingh am , Program Anal    yst


For additionalcopie s of th is re port, pl
                                         e as e contact th e O ffice of th e Ins pe ctor Ge ne ral
                                                                                                 ’s
Pub l                  is t at (410)9 66-9 135. Re fe r to Com m on Ide ntification Num be r
    ic A ffairs Spe cial
A -13-9 8-72023.




                                                 F-1

                                  A PPEND IX G


SSA O RGA NIZ A TIO NA LCH ART

